                OFFICE OF INSPECTOR GENERAL


 FINANCIAL MANAGEMENT SYSTEM &
     COMPLIANCE EVALUATION

                                    ON SELECTED
                                   NEA GRANTS TO

              Society for the Arts in Healthcare
                                      Washington, DC

                  REPORT NO. SCE-12-04, Rev. 1

                                          July 9, 2012

                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION

BACKGROUND
The Society for the Arts in Healthcare (SAH) is a non-profit corporation in Washington,
DC. Founded in 1991, SAH is dedicated to advancing arts as integral to healthcare by
demonstrating the valuable roles the arts can play in enhancing the healing process and
advocating for the integration of the arts into the environment and delivery of care within
healthcare facilities.

OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB), and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). In addition, we evaluated the recipient’s
compliance with OMB and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to NEA to be distributed in direct grants to fund
arts projects and activities which preserve jobs in the nonprofit arts sector threatened by
declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.

During the period under review, SAH had six NEA grants opened or closed within the
last three years with awards totaling $270,000. We reviewed two of the six grants in
which NEA funds had been drawn down and costs had been reported. The two grants
reviewed were Grant No. 10-3900-7003 in the amount of $50,000 and Grant No. 09-
5488-7194 in the amount of $50,000.

PRIOR AUDIT COVERAGE
During the past five years, NEA OIG has not issued any audit reports on Federal grants
awarded to SAH. As of our site visit on March 20, 2012, the most recent independent
auditor’s report on SAH was for the year ended December 31, 2010. The audit was
conducted by Kositzka, Wicks & Company, Certified Public Accountants, which issued
an unqualified (clean) opinion. SAH was not subject to the audit requirements of OMB
Circular A-133.


                                             2
                        RESULTS OF EVALUATION
Our evaluation concluded that SAH did not comply with the financial management
system requirements established by OMB and NEA for its Recovery Act funds awarded
under Grant No. 09-5488-7194. SAH included unallowable expenditures in their total
reported outlays.

Our evaluation also concluded that SAH did not comply with the financial management
system requirements established by OMB and NEA for its NEA Grant No. 10-3900-
7003. SAH included unallowable expenditures in their total reported outlays. SAH did
not document the methodology for allocating costs to Federal rewards. Furthermore,
SAH did not have procedures in place to ensure that payments would not be made to
contractors or recipients that were debarred or suspended from receiving Federal
assistance. Details are presented in the following narrative.

                        FINANCIAL MANAGEMENT
RECOVERY ACT AWARD
SAH was awarded Recovery Act Grant No. 09-5488-7194 in the amount of $50,000 with
no matching requirement. The Recovery Act grant was awarded to support the salaries of
the Director of Programs position and four contracted performers. During our site visit,
SAH provided us with an expenditure listing totaling $51,372. Our review of the listing
identified $1,767 in unallowable costs, such as office supplies, auditing and accounting
fees. Therefore, we are disallowing and reducing costs claimed under the grant by
$1,767, resulting in a refund of $395 due to NEA.

NEA's Recovery Act guidance states, in part:

       Projects are limited to:

           ●   Salary support, full or partial, for one or more positions that are
               critical to an organization's artistic mission and that are in jeopardy
               or have been eliminated as a result of the current economic climate.

               and/or

           ●   Fees for previously engaged artists and/or contractual personnel to
               maintain or expand the period during which such persons would be
               engaged.




                                              3
                                 Recovery Act Award
                                Grant No. 09-5488-7194
                                 Calculation of Refund

Total Costs Claimed                                                           $51,372

   Less:                  Unallowable Cost
                            Merchant Fees                            (236)
                            Office Supplies                          (215)
                            Postage and Deliveries                    (84)
                            Accounting and Auditing Fees             (771)
                            Rent                                     (309)
                            Telephone/DSL                            (152)
                          Total Unallowable Cost                             ($ 1,767)
                          Total Allowable Costs Claimed                       $49,605

Recovery Act Award (non-matching)                                 $50,000
Less: Total Allowable Costs Claimed                               (49,605)
Refund to NEA                                                       $395

We recommend that SAH submit a refund to NEA, in the amount of $395. In addition,
we recommend that SAH develop written policies and implement procedures to ensure
that only allowable and accurate costs are charged to the project and reported on its
Federal Finance Report (FFR). The policies and procedures should ensure that the
employees, who prepare the FFRs, are familiar with the appropriate OMB cost principles.

REPORTED EXPENDITURES

Unallowable Costs

SAH was awarded Grant No. 10-3900-7003 in the amount of $50,000 with a one-to-one
matching requirement. During our visit, we were provided with a listing of expenditures
totaling $100,100 that agreed with the total outlays reported in the FFR. Our review
identified food and entertainment costs totaling $2,310, which is unallowable under OMB
Circular A-122, Cost Principles for Non-Profit Organizations. Therefore, we are
questioning $2,310 in unallowable costs, which reduces the total allowable expenditures
to $97,790, resulting in a potential refund of $1,105 due to NEA (See Appendix A).

We recommend that SAH provide documentation to support costs in the amount of
$2,310. Without additional documentation, a potential refund of $1,105 could be due to
NEA. In addition, we recommend that SAH develop written policies and implement
procedures to ensure that only allowable and accurate costs are charged to the project and
reported on its FFR. The policies and procedures should also require that employees who
prepare the FFR are familiar with the appropriate OMB cost principles.


                                            4
Allocation Methodology

SAH could not provide documentation for the methodology used to allocate costs to the
NEA award. According to OMB Circular A-110, subpart C 21(b) (6), recipients of
Federal awards should have:

       Written procedures for determining the reasonableness, allocability, and
       allowability of costs in accordance with the provisions of the applicable
       Federal cost principles and the terms and conditions of the award.

We recommend that SAH develop written policies and implement procedures to ensure
the methodology for the allocation of costs charged to Federal awards is documented.

DEBARMENT AND SUSPENSION
SAH did not have policies and procedures in place to ensure that contractors or recipients
were not debarred or suspended from receiving Federal assistance prior to the payment or
award of Federal funds.

NEA General Terms states:

       You must comply with requirements regarding debarment and suspension
       in Subpart C of 2 CFR part 180, as adopted by the Arts Endowment in Title
       2 CFR, Chapter 32, Part 3254.

Subpart C of 2 CFR part 180, OMB Guidelines to Agencies on Governmentwide
Debarment and Suspension (Nonprocurement), states, in part:

       You must verify that the person with whom you intend to do business is not
       excluded or disqualified. You do this by:
           (a) Checking the EPLS; or
           (b) Collecting a certification from that person if allowed by the Federal agency
               responsible for the transaction; or
           (c) Adding a clause or condition to the covered transaction with that person.

We recommend that SAH develop written policies and implement procedures to ensure
that contractors and recipients are not debarred or suspended from receiving Federal
assistance prior to the payment or award of Federal funds.

EXIT CONFERENCE
A preliminary exit conference was held with SAH officials on March 20, 2012.
Subsequent to our site visit, a telephone exit conference was held with SAH on June 25,
2012. SAH officials concurred with our findings and recommendations.



                                             5
                         RECOMMENDATIONS
We recommend that SAH:

      1. Submit a refund payment to NEA in the amount of $395 for unallowable costs
         claimed under the Recovery Act Grant No. 09-5488-7194.

      2. Develop written policies and implement procedures to ensure that only
         allowable and accurate costs are charged to the NEA grant and reported on its
         FFR. The policies and procedures should ensure that the employees, who
         prepare the FFRs, are familiar with the appropriate OMB cost principles.

      3. Provide documentation to support costs in the amount of $2,310. Without
         additional documentation, a potential refund of $1,105 could be due to NEA.

      4. Develop written policies and implement procedures to ensure that the
         methodology for the allocation of costs charged to Federal awards are
         documented.

      5. Develop written policies and implement procedures to ensure that contractors
         and recipients are not on the debarment and suspension from receiving
         Federal assistance prior to the payment or award of Federal funds.




                                          6
                                                                       Appendix A

                       Society for the Arts in Healthcare
                        Calculation of Potential Refund
                            Grant No. 10-3900-7003

Total Cost Claimed                                         $100,100
Less: Questioned Cost Food/Meals                             (2,310)
Total Allowable cost                                        $97,790

Total Allowable Cost                            $97,790
Less: NEA Share of Allowable Cost               (48,895)
SAH Matching Amount                             $48,895

NEA Award Funds Disbursed            $50,000
Less: NEA Share of Allowable Cost    (48,895)
Potential Refund Due to NEA          $ 1,105




                                       7
